           Texas State Technical College
               3801 Campus Drive
                   Waco, Texas

   National Science Foundation Award Number
                  DUE-9553716

          Independent Auditors' Reports
                       and
               Financial Schedules



For the Period September 1, 1995 to August 31, 1999




                                Leon Snead & Company, P.C.
                                416 Hungerford Drive, Suite 400
                                Rockville, Maryland 20850
                              Texas State Technical College
                                  3801 Campus Drive
                                  Waco, Texas 76705

                                    Table of Contents

                                                                              Page

Executive Summary:

  Background	                                                             1
  Audit Objectives, Scope, and Methodology 	                              1
  Summary of Audit Results	                                               2
  Compliance Finding	                                                     3
  Internal Control Findings	                                              3
  Summary of Recommendations and Awardee's Responses
     to the Audit Results	                                                4
  Follow-up on Prior Audit Findings 	                                     4
  Exit Conference	                                                        4

Audit Findings and Recommendations:

  Independent Auditors' Report on Financial Schedules 	                   6
  Independent Auditors' Report on Compliance with Laws and Regulations
    and Internal Controls	                                                8

Financial Schedules and Supplemental Information:

  Schedule A Schedule of Award Costs (Award No. DUE-9553716)	            14
  Schedule B Schedule of Questioned Costs (Award No. DUE-9553716) 	      15
  Schedule C Summary Schedules of Award Audited and Audit Results
                  (Award No. DUE-9553716)	                               16
  Notes to Financial Schedules 	                                         18

Appendix A - Texas State Technical College's Comments to Report
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                                      EXECUTIVE SUMMARY

BACKGROUND

Texas State Technical College (TSTC) is an agency of the State of Texas located in Waco,
Texas. TSTC follows the cost principles specified in Office of Management and Budget (OMB)
Circular A-21, Cost Principles for Educational Institutions and the Federal administrative
requirements contained in OMB Circular A- 110, Uniform Administrative Requirements for Grants
and Agreements With Institutions of Higher Education, Hospitals,              and Other Non-Profit
Organizations. A description of the NSF award audited follows:

Award DUE-9553716

On June 22, 1995, the National Science Foundation (NSF) granted TSTC an award to support a
multi-state effort to develop curricula and laboratory materials for student learning in advanced skill
technologies. The curricula included fifteen occupational areas supporting the American Machining
and Machine Tool Industries. Under this agreement, NSF awarded TSTC $1,550,000 and TSTC
agreed to cost sharing of $5,758,278 from September 1, 1995 to August 31, 1999. TSTC claimed
$1,530,600 of NSF funding and did not claim any cost sharing.

AUDIT OBJECTIVES, SCOPE, & METHODOLOGY

We have performed an audit of the award issued by the NSF to the TSTC for the period September 1,
1995 to August 31, 1999. A summary of the audit results of this award are in
Schedule A - Schedule of Award Costs, and Schedule C - Summary Schedules of Award Audited and
Audit Results.

The objectives of our audit were to determine whether:

    1. Costs charged to the NSF award by TSTC are allowable, allocable, and reasonable, in
       accordance with the applicable Federal cost principles and NSF award terms and
       conditions; and
	




        2. TSTC's systems of internal controls are adequate to properly administer, account for, and
           monitor its NSF award in compliance with NSF and Federal requirements.

    Our audit was conducted in accordance with auditing standards generally accepted in the United
    States of America, Government Auditing Standards issued by the Comptroller General of the
    United States of America, and the National Science Foundation Audit Guide (September 1996),
    as applicable. These standards, and the National Science Foundation Audit Guide, required that
    we plan and perform the audit to obtain reasonable assurance about whether the amounts claimed
    to the National Science Foundation as presented in the Schedule of Award Costs (Schedule A),
    are free of material misstatement. An audit includes examining, on a test basis, evidence
    supporting the amounts and disclosures in Schedule A. An audit also includes assessing the
    accounting principles used and significant estimates made by the TSTC, as well as evaluating the
    overall financial schedule presentation. We believe our audit provides a reasonable basis for our
    opinion.

    SUMMARY OF AUDIT RESULTS

    An audit was performed of the financial reports submitted to NSF as well as the cost sharing
    provided by TSTC on the NSF award audited. These costs are shown in Schedule A and are
    summarized as follows:

                              Source of                          Claimed           Questioned
        Award No.             Funding            Budget           Costs               Costs
       DUE-9553716          NSF Funding        $1,550,000      $1,530,600        $     -
                            Cost Sharing        5,758,278            -             1,209,174
                            Total Project      $7K278          $1,530,600        $1,209,174

    The costs claimed by TSTC for the award expenditures were generally allowable, allocable, and
    reasonable, in accordance with the applicable Federal cost principles and NSF award terms and
    conditions. However, $1,209,174 of the claimed costs were questioned because TSTC did not
    meet its cost-sharing obligation. NSF funded $1,550,000 (21 percent) of the total budgeted
    project costs of $7,308,278, and TSTC was to cost share the remaining $5,758,278 (79 percent).
    TSTC did not comply with the award condition to provide cost-sharing funds in support of the
    project. However, TSTC claimed costs of $1,530,600 to NSF. Because of TSTC's failure to
    provide its cost sharing of $5,758,278, we questioned $1,209,174 (79 percent of $1,530,600) of
    the claimed costs to NSF. See Schedule B for the calculation of questioned cost. Questioned
    costs are (1) costs for which there is documentation that the recorded costs were expended in
    violation of the law, regulations or specific conditions of the award, (2) costs that require
    additional support by the awardee, or (3) costs that require interpretation of allowability by the
    National Science Foundation - Division of Acquisition and Cost Support (DACS).

    We used nonstatistical sampling to test the costs claimed by TSTC to test for compliance with
    Federal and NSF award requirements. Based on this sampling plan, questioned costs in this
    report may not represent total costs that may have been questioned had all expenditures been



                                                2
tested. In addition, we made no attempt to project such costs to total costs claimed, based on the
relationship of costs tested to total costs.

In general, TSTC's systems of internal controls were adequate to properly administer, account
for, and monitor its NSF award in compliance with NSF and Federal requirements, except in the
areas related to cost sharing, subawardee monitoring, and activity reports. Specifically, TSTC
did not have procedures in place to ensure that required cost sharing is met, recorded in the
accounting system, adequately documented, and reported to NSF. We believe that TSTC's
failure to meet its cost-sharing obligation is a material internal control weakness because the
required cost sharing represented 79 percent of the total project costs. In addition, TSTC did not
adequately monitor its subawardees and the costs claimed by the subawardees, which
represented 70 percent of the total costs claimed to NSF, and properly certify its after-the-fact
activity reports.

The following is a brief description of the compliance and internal control findings that resulted
from our audit. For a complete discussion of these findings, refer to the Independent Auditors'
Report on Compliance with Laws and Regulations and Internal Controls.

COMPLIANCE FINDING:

Activity Reports

TSTC's after-the-fact activity reports supporting $240,920 in claimed salaries and wages, and
related fringe benefits were certified annually rather than semiannually because TSTC was not
sufficiently familiar with the Federal requirements. This reduces TSTC's ability to provide
assurance that salary and wages, and the related fringe benefits charged to NSF awards are
allocable, allowable, and reasonable in accordance with Federal and NSF requirements.

INTERNAL CONTROL FINDINGS:

Cost Sharing

TSTC did not have policies and procedures in place to ensure that required cost sharing is met,
recorded in the accounting system, adequately documented, and reported to NSF. If TSTC's
promised cost sharing is not realized, then budgeted project costs may have been significantly
greater than the funds the awardee actually needed. Therefore, NSF could have funded
additional projects.

Subawardee Monitoring

TSTC did not adequately monitor its subawardees. Specifically, TSTC did not obtain and review
its subawardees' OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations audit reports. Additionally, TSTC did not review one of five subawardees'
supporting documents for its claimed costs because TSTC was not familiar with the Federal
requirements. By not reviewing its subawardees' OMB Circular A-133 audit reports and not
always reviewing subawardees' supporting documentation for claimed costs, TSTC reduces its



                                            3
	




    ability to efficiently and effectively manage and monitor expenditures of subawardees charged to
    the NSF award.

    SUMMARY OF RECOMMENDATIONS
    AND AWARDEE'S RESPONSES TO THE AUDIT RESULTS:

    To address the compliance finding , we recommend that NSF's Directors of DACS and the
    Division of Grants and Agreements (DGA) ensure that TSTC prepare and certify activity reports
    for professorial and professional staff each academic term, but not less than every six months.
    To address the internal control findings, we recommend that NSF 's Directors of DACS and
    DGA ensure that TSTC (a) review the requirements of OMB Circular A-110 and NSF Grant
    Policy Manual (GPM), (b) develop and implement cost-sharing policies and procedures to ensure
    that the required cost sharing for this and any future awards is met, (c) adequately document and
    record cost sharing in its accounting system, (d) submit its required annual cost-sharing
    certifications to NSF, (e) require its subawardees to have OMB Circular A-133 audits performed
    and submit the audit reports for TSTC's review, and (f) establish policies and procedures for
    monitoring subawardees to ensure its compliance with OMB Circular A-110 requirements.
    TSTC agreed with the findings and recommendations made in our report.

    FOLLOW-UP ON PRIOR AUDIT FINDINGS:

    There was no prior audit of NSF awards. TSTC's OMB Circular A-133 audits did not include
    this award as a major program.

    EXIT CONFERENCE:

    An exit conference was held on November 16, 2001, at TSTC's office in Waco, Texas. Findings
    and recommendations as well as other observations contained in this report were discussed with
    those attending. Representing TSTC were:

                Name                      Title




                                                  4
AUDIT FINDINGS AND RECOMMENDATIONS
	




     National Science Foundation
     Office of Inspector General
     4201 Wilson Boulevard
     Arlington, Virginia 22230


              INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES


    We were engaged to audit the costs claimed by the Texas State Technical College (TSTC) to the
    National Science Foundation (NSF) on the Federal Cash Transactions Report - Federal Share of Net
    Disbursements for the NSF award listed below. In addition, we have also audited the amount of cost
    sharing claimed on the award. The Federal Cash Transactions Report - Federal Share of Net
    Disbursements, as presented in the Schedule of Award Costs (Schedule A), are the responsibility of
    TSTC's management. Our responsibility is to express an opinion on Schedule A based on our audit.

            Award Number               Award Period                 Audit Period

             DUE-9553716             09/01/95 - 08/31/99          09/01/95 - 08/31/99

    We conducted our audit in accordance with auditing standards generally accepted in the United
    States of America, Government Auditing Standards (1994 Revision) issued by the Comptroller
    General of the United States of America, and the National Science Foundation Audit Guide
    (September 1996). These standards, and the National Science Foundation Audit Guide, require that
    we plan and perform the audit to obtain reasonable assurance about whether the financial schedules are
    free of material misstatement. An audit includes examining, on a test basis, evidence supporting the
    amounts and disclosures in the financial schedules. An audit also includes assessing the accounting
    principles used and significant estimates made by TSTC's management, as well as evaluating the
    overall financial schedule presentation. We believe that our audit provides a reasonable basis for our
    opinion.

    The accompanying financial schedules were prepared in conformance with the requirements of the
    National Science Foundation Audit Guide as described in the Notes to the Financial Schedule, and are
    not intended to be a complete presentation of financial position in conformity
    with accounting principles generally accepted in the United States of America.
Schedule A presents costs of $1,209,174 that are questioned as to their allowability under the
award agreement. NSF will make the final determination about these findings. The ultimate
outcome of this determination cannot presently be determined. Accordingly, no adjustment has
been made to costs claimed for any potential disallowance by NSF.
In our opinion, the financial schedule referred to above presents fairly, in all material respects,
the costs claimed on the Federal Cash Transactions Reports - Federal Share of Net
Disbursements as presented in the Schedule of Award Costs (Schedule A), for the period
September 1, 1995 to August 31, 1999 in conformity with the National Science Foundation
Audit Guide, NSF Grant Policy Manual, terms and conditions of the NSF award and on the basis
of accounting described in the Notes to the Financial Schedule.

In accordance with Government Auditing Standards, we have also issued a report dated
November 16, 2001, on our consideration of TSTC's internal control over financial reporting and
our tests of its compliance with certain provisions of laws, regulations, the provisions of the
National Science Foundation Audit Guide and the awards applicable to TSTC. That report is an
integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of TSTC's management, the National
Science Foundation, the Office of Management and Budget, and the Congress of the United
States of America and is not intended to be and should not be used by anyone other than these
specified parties.




Leon Snead & Company, P.C.
Rockville, Maryland 20850
November 16, 2001




                                            7
	




    National Science Foundation
    Office of Inspector General
    4201 Wilson Boulevard
    Arlington, Virginia 22230


                  INDEPENDENT AUDITORS' REPORT ON COMPLIANCE WITH
                    LAWS AND REGULATIONS AND INTERNAL CONTROLS

    We have audited the Schedule of Award Costs as presented in Schedule A, which summarizes the
    financial reports submitted by Texas State Technical College (TSTC) to the National Science
    Foundation (NSF) for the award and period listed below and have issued our report thereon dated
    November 16, 2001.

            Award Number                Award Period                   Audit Period

             DUE-9553716              09/01/95 - 08/31/99           09/01/95 - 08/31/99

    We conducted our audit in accordance with auditing standards generally accepted in the United States
    of America, Government Auditing Standards (1994 Revision) issued by the Comptroller General of the
    United States of America, and the National Science Foundation Audit Guide (September 1996). These
    standards, and the National Science Foundation Audit Guide, require that we plan and perform the
    audit to obtain reasonable assurance about whether the financial schedule is free of material
    misstatement.


                                               COMPLIANCE

    Compliance with applicable Federal laws, regulations, and the NSF award terms and conditions is the
    responsibility of TSTC's management. As part of obtaining reasonable assurance about whether the
    financial schedule is free of material misstatement, we performed tests of TSTC's compliance with
    certain provisions of laws, regulations, and the NSF award terms and conditions. However,
    providing an opinion on overall compliance with such provisions was not an objective of our audit of
    the financial schedule. Accordingly, we do not express such an opinion.

    The results of our tests of compliance disclosed three instances of noncompliance that are required to
    be reported herein under Government Auditing Standards and the National Science
 Foundation Audit Guide. One of these instances is discussed below. The remaining two
instances concerning cost sharing and subawardee monitoring are also internal control
weaknesses that are discussed in the Internal Control Over Financial Reporting section of this
report in finding numbers 2 and 3, respectively.            We considered these instances of
noncompliance in forming our opinion of whether Schedule A presented fairly in all material
respects, the cost claimed by TSTC on the Federal Cash Transactions Report - Federal Share of
Net Disbursements for the period September 1, 1995 through August 31, 1999, in conformity
with National Science Foundation policies and procedures, and determined that this report does
not affect our report dated November 16, 2001, on the financial schedule.

Finding No. 1 - Activity Reporting

OMB Circular A-21, Subpart J, Section 8(c), 2(e) requires that after-the-fact activity reports for
professorial and professional staff be prepared each academic term, but not less than every six
months. TSTC's after-the-fact activity reports supporting $240,920 in claimed salaries and
wages and related fringe benefits were certified annually rather than semiannually because TSTC
was not sufficiently familiar with the OMB Circular A-21 requirements. This reduces TSTC's
ability to provide assurance that salaries and wages, and the related fringe benefits charged to
NSF awards are allowable, allocable, and reasonable in accordance with OMB Circular A-21
requirements and the NSF award terms and conditions.

Recommendation No. 1

We recommend that NSF's Division Directors of DACS and DGA ensure that activity reports for
professorial and professional staff be prepared and certified each academic term, but not less
than every six months.

TSTC's Comments

The President of TSTC agreed with the recommendation and stated that corrective action has
been taken. Also, he indicated that an Office of External Resource Development had been
established and structured to provide the requisite oversight and monitoring.

Auditors' Response

TSTC's comments are responsive to the recommendation.


                INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of TSTC is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal control are to provide management with reasonable, but not absolute assurance that
assets are safeguarded against loss from unauthorized use or disposition, and that transactions are
executed in accordance with management's authorization and recorded properly to permit the
preparation of a financial schedule in accordance with accounting principles prescribed by the


                                             9
National Science Foundation. Because of inherent limitations in any internal control, errors or
irregularities may nevertheless occur and not be detected. Also, projection of any evaluation to
future periods is subject to the risk that procedures may become inadequate because of changes
in conditions or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our audit of the Schedule of Award Costs - Schedule A for the
period September 1, 1995 to August 31, 1999, we obtained an understanding of TSTC's internal
control system over financial reporting. With respect to the internal control over financial
reporting, we obtained an understanding of the design of relevant policies and procedures and
whether the procedures have been placed in operation. Furthermore, we assessed control risk in
order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedule and not to provide an opinion on the internal control. Accordingly, we do not
express such an opinion.

Our consideration of internal control over financial reporting would not necessarily disclose all
matters related to internal control over financial reporting that might be reportable conditions
under standards established by the American Institute of Certified Public Accountants.
Reportable conditions involve matters coming to our attention relating to significant deficiencies
in the design or operation of the internal control over financial reporting that, in our judgment,
could adversely affect the entity's ability to record, process, summarize and report financial data
in a manner that is consistent with the assertions of management in the financial schedule. A
material weakness is a reportable condition in which the design or operation of one or more of
internal control elements does not reduce to a relatively low level the risk that misstatements in
amounts that would be material in relation to the financial schedule being audited may occur and
not be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal control, misstatements due to error
or fraud may nevertheless occur and not be detected.

We noted the following matters involving TSTC's internal control over financial reporting and
its operation. We consider the cost-sharing finding to be a material weakness and subawardee
monitoring as a reportable condition under the standards established by American Institute of
Certified Public Accountants.

Finding No. 2 - Cost Sharing

OMB Circular A-110, Subpart C, Paragraph .23(a) on cost sharing or matching requires that:
"All contributions, including cash and third party in-kind, shall be accepted as part of the
recipient's cost sharing or matching when such contributions meet all of the following criteria.
(1) Are verifiable from the recipient's records; (2) are not included as contributions for any other
federally assisted project or program; (3) are necessary and reasonable for proper and efficient
accomplishment of project or program objectives; (4) are allowable under the applicable cost
principles; (5) are not paid by the Federal Government under another award, except where
authorized by Federal statute to be used for cost sharing or matching; (6) are provided for in the
approved budget when required by the Federal awarding agency; and (7) conform to other
provisions of this Circular, as applicable." Also, NSF GPM 333.6(a) requires grantees to



                                             10
maintain records of costs that are claimed by the grantee as being its contribution to cost
participation. NSF GPM 333.6 (b) states "Unless otherwise required by the grant instrument or
requested by NSF, the actual cost participation by the grantee need not be reported to NSF.
However, in cases where grantee cost sharing commitments are $500,000 or more, the grant
instrument will require as a condition of the grant, the Authorized Organizational Representative
to report and certify the amount of cost sharing on an annual and cumulative basis. These cost
sharing reports shall be included as part of the annual progress and final project reports."
TSTC did not comply with its cost-sharing requirements for the NSF award because the awardee
did not (1) record or claim any cost sharing, and (2) submit to NSF its required annual cost-
sharing certifications. TSTC did not have policies and procedures in place to ensure that
required cost sharing is met, recorded in the accounting system, adequately documented, and
reported to NSF. The award conditions required TSTC to cost share in the amount of $5,758,278
($1,919,426 per year for three years), which represents 79 percent of the total project costs.
Since TSTC did not meet the cost-sharing requirements, we questioned $1,209,174, which
represents 79 percent of the total claimed costs of $1,530,600. (For a detailed explanation and
computation of the questioned costs, see Schedule B, Schedule of Questioned Costs.) If TSTC's
promised cost sharing is not realized, then budgeted project costs may have been significantly
greater than the funds the awardee actually needed. Therefore, NSF could have funded
additional projects.

Recommendation No. 2

We recommend that NSF's Division Directors of DACS and DGA ensure that TSTC (a) review
the requirements of OMB Circular A-110 and GPM, (b) develop and implement cost-sharing
policies and procedures to ensure that the required cost sharing for this and any future awards is
met, (c) adequately document and record cost sharing in its accounting system, and (d) submit its
required annual cost-sharing certifications to NSF.

TSTC's Comments

The President of TSTC agreed with the recommendation and stated that a corrective action plan
has been developed that will include a process for reviewing existing policies and procedures and
bringing forward new, more appropriately focused policies and procedures designed to provide
the requisite internal controls for successful oversight of extramural funding. The issue of cost
sharing is central to this process.

Auditors' Response

TSTC's comments are responsive to the recommendation.

Finding No. 3. - Subawardee Monitoring

OMB Circular A-110, Subpart C, Paragraph .51(a) on monitoring and reporting program
performance, requires that: "Recipients are responsible for managing and monitoring each
project, program, subaward, function or activity supported by the award. Recipients shall
monitor subawards to ensure subrecipients have met the audit requirements as delineated in



                                            11
Section .26." This section on non-Federal audits in part states that recipients and subrecipients
that are institutions of higher education or other non-profits shall be subject to the audit
requirements contained in the Single Audit Act Amendments of 1996 and revised OMB Circular
A-133.

TSTC claimed a total of $1,068,114 of subaward costs, which represents 70 percent of the total
$1,530,600 cost claimed to NSF. TSTC did not obtain and review its subawardees' OMB
Circular A-133 audit reports. In addition, TSTC did not review one of five subawardees'
supporting documents, which represents approximately 22 percent of the subaward cost claimed
on the NSF award. We verified that the costs claimed by the subawardee were supported by the
source documentation that appeared to be allowable, allocable, and reasonable to the award.
TSTC did not review OMB Circular A-133 audit reports, and monitor all subaward costs because
it was not sufficiently aware of the requirements. Failure to review OMB Circular A-133 audit
reports and obtain subawardees' supporting documentation reduces TSTC's ability to efficiently
and effectively manage and monitor NSF-funded expenditures and activities by subawardees.

Recommendation No. 3:

We recommend that NSF's Division Directors of DACS and DGA ensure that TSTC (1) require
its subawardees to have OMB Circular A-133 audits performed and submit the audit reports for
TSTC's review, and (2) establish policies and procedures for monitoring subawardees to ensure
its compliance with OMB Circular A-110 requirements.

TSTC's Comments

The President of TSTC agreed with the recommendation and stated that all subsequent
subawardees will be monitored.

Auditors' Response

TSTC's comments are responsive to the recommendation.

We considered these internal control weaknesses in forming our opinion of whether Schedule A
is presented fairly in all material respects, in conformity with National Science Foundation
policies and procedures, and determined that this report did not affect our report dated November
16, 2001 on the financial schedules.

This report is intended solely for the information and use of TSTC's management, the National
Science Foundation, the Office of Management and Budget, and the Congress of the United
States and is not intended to be and should not be used by anyone other than these specified
parties.


Leon Snead & Company, P.C.
Rockville, Maryland 20850
November 16, 2001



                                            12
	




                                                                                                                    Schedule A




                                                        Texas State Technical College
                                          National Science Foundation Award Number DUE-9553716
                                                           Schedule of Award Costs
                                                 From September 1, 1995 to August 31, 1999
                                                                    Final




	                                               0	                 0	               0	                0	              0

      Total Costs                     $1,550,000         $x.,.530,600        $	    0       $1,534,600	-_-_Q

      TSTC Cost Sharing               55,758,278         $	        0         $	    0       $	        0       $1209_,174           B




    (A)   The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report -
          Federal Share of Net Disbursements as of the quarter ended September 31, 1999. Claimed costs reported above are taken
          directly from TSTC's books of accounts.

          See Schedule B and the accompanying notes to this financial schedule.




                                                                        14
                                                                                   Schedule B


                               Texas State Technical College
                National Science Foundation Award Number DUE-9553716
                                   Schedule of Questioned Costs
                       From September 1, 1995 to August 31, 1999


                          Texas State Technical College Matching Share

OMB Circular A-110.23, Cost sharing or Matching, requires that all contributions for cost
sharing be accepted when they are verifiable from the recipient's records. Also, NSF's GPM
333.6(a) requires grantees to maintain records of all its project cost which are claimed by the
grantee as being its contribution to cost participation.

Per the award conditions, TSTC was required to cost share $5,758,278 ($1,919,426 per year for
three years). TSTC did not have policies and procedures in place to ensure that required cost
sharing is met, recorded in the accounting system, adequately documented, and reported to NSF.
Since TSTC did not meet the cost-sharing requirements of the award, we questioned $1,209,174,
which represents 79 percent of the $1,530,600 claimed costs to NSF.



Questioned cost sharing was calculated as follows:

Budgeted NSF Funding                                 $1,550,000          21%

Plus: Budgeted TSTC Cost Sharing                      5,758,278          79%

Total Program Budget                                 $7,308,278          100%


Total Program Costs Incurred Per Books               $1,530,600

Allowable NSF Funding (21 % of $1,530,600)           $ 321,426


Costs Claimed by TSTC                                $1,530,600

Less: Maximum Allowable NSF Funding                  _321,426)

Questioned Cost Sharing                              $1,209,174




                                           15
                                                                                    Schedule C

                         Texas State Technical College
              Summary Schedules of Award Audited and Audit Results
                   From September 1, 1995 to August 31, 1999


Summary of Award Audited

     Award Number                  Award Period                      Audit Period
      DUE-9553716               09/01/95 - 08/31/99               09/01/95 - 08/31/99

   Award              Type of
   Number             Award                         Award Description
 DUE-9553716           Grant        To support a multi-State effort to develop curricula
                                    and laboratory materials for student learning in
                                    advanced skills technologies for fifteen
                                    occupational areas supporting the American
                                    machining and machine tool industries.

Summary of Questioned Costs by Award

    NSF Award
     Number               Award Budget            Claimed Costs       Questioned Costs
   DUE-9553716             $1,550,000              $1,530,600           $1,209,174

Summary of Questioned Cost by Explanation

                                              Questioned    Internal
              Condition                         Cost        Control           Non-
                                               Amount      Weaknesses       Compliance

TSTC did not have policies and                $1,209,174      Yes               Yes
procedures in place to ensure that
required cost sharing is met, recorded
in the accounting system, adequately
documented, and reported to NSF.
Therefore, 79 percent of the
$1,530,600 costs claimed to NSF is
questioned. Seventy-nine percent
represents the percentage of total
funding that TSTC was responsible for
funding through cost sharing on this
award.




                                         16
Summary of Non-Compliance Issues and Internal Control Weaknesses

                                                                Is Internal
                                                                  Control
                                                                Weakness
            Condition                   Non-       Internal    Material or
                                      compliance   Control     Reportable?

TSTC did not have policies and             Yes       Yes           Material
procedures in place to ensure that
required cost sharing is met,
recorded in the accounting
system, adequately documented,
and reported to NSF.

Subawardee monitoring was not              Yes       Yes        Reportable
adequately performed.

Activity reports were not certified        Yes       No       (Not Applicable)
semiannually.




                                      17
                                Texas State Technical College
                              Notes to the Financial Schedules
                          From September 1, 1995 to August 31, 1999

 Summary of Significant Accounting Policies:

       Accounting Basis

      The accompanying financial schedules have been prepared in conformity with National
      Science Foundation instructions. Schedule A has been prepared from the reports
      submitted to the National Science Foundation. The basis of accounting used in
      preparation of these reports differs from generally accepted accounting principles. The
      following information summarizes these differences:

          A. Equity

          Under the terms of the award, all funds not expended according to the award
          agreement and budget at the end of the award period are to be returned to the National
          Science Foundation. Therefore, the awardee did not maintain any equity in the award
          and any excess of cash received from the National Science Foundation over final
          expenditures is due back to the National Science Foundation.

          B. Equipment

          Equipment is charged to expense in the period during which it is purchased instead of
          being recognized as an asset and depreciated over its useful life. As a result, the
          expenses reflected in the statement of award costs include the cost of equipment
          purchased during the period rather than a provision for depreciation.

          Except for awards with nonstandard terms and conditions, title to equipment under
          NSF awards vests in educational and non-profit recipients, for use in the project or
          program for which it was acquired, as long as it is needed. The recipient may not
          encumber the property without approval of the Federal awarding agency, but may use
          the equipment for its other Federally sponsored activities, when it is no longer needed
          for the original project.

          C. Inventory

          Minor materials and supplies are charged to expense during the period of purchase.
          As a result, no inventory is recognized for these items in the financial schedules.

Income Taxes:

      Texas State Technical College is an agency of the State of Texas. Texas State Technical
      College is exempt from federal income taxes under the Internal Revenue Code. It is also
      exempt from Texas franchise or income tax.



                                           18
Comments to Independent Auditors' Report Conducted for NSF Award DUE
9553716

Introduction

Dates of Award:        9/1/95 to 8/31/99
Audit Period:          9/1/95 to 8/31/99




                  Response to Audit of DUE 9553716 (MASTER) / Page 1
 At the time the MASTER proposal was drafted, the college had just completed a successful U.S.
Department of Education project (MAST) involving the same partners. This earlier project laid
the groundwork for the successful deliverables later completed in MASTER. These partners
were all recognized as advanced technology centers receiving significant funding. Their
experience in such projects led TSTC staff (none of which are currently employed at TSTC) to
take them at their word relative to the value inherent in the equipment and facilities committed
to the project. In, a document prepared for distribution at partners' meetings entitled "MASTER
Budget Summary," specific reference is made to the following: "Each college has a minimum of $20
million in equipment that could be utilized as a part of this project. A very conservative estimate of
$228,571 of equipment instructional use per site is used in the budget" (MASTER Budget
Summary, page 6). The actual proposal budget lists the equipment funds as well, and their
locations at the various sites. Once the proposal was approved, TSTC staff assumed, perhaps
incorrectly, that there was no problem with the cost share commitment.

Audit: The audit resulted in two specific findings, as described in the "Summary of Audit
Results." These are a compliance finding specifically that TSTC "did not meet the cost sharing
requirements of the award resulting in questioned costs of $1,205,978" and a comment on internal
controls, specifically that TSTC "did not have procedures in place to ensure the establishment
and maintenance of fiscal records to account for cost sharing and to ensure compliance with
cost sharing requirements" (Independent Auditors' Report . on Compliance, Leon Snead &
Company P.C., Page 8). The auditor's recommendation in both instances is the same: "The
grantee should design and place in operation procedures to establish and maintain fiscal records to
account for cost sharing and to ensure compliance with cost sharing requirements" (Independent
Auditors' Report on Compliance, Leon Snead & Company P.C., Page 9)




                   Response to Audit of DUE 9553716 (MASTER) / Page 2
 •  An oversight committee composed of TSTC faculty, procurement staff, and budget control staff has
    been established to review the circulars and provide insight into the development of appropriate policies

 • All expenditures of grant funds are routed through the Office of External Resource Development for
    and procedures;



• Each active grant has been filed under a system created to correspond to the various requirements
   monitoring of cost principles on currently active grants;



• A working document has been sent forward to the President, Deans, and Executive Assistant to the
   described in OMB A-110;

   President from the Office of External Resource Development detailing various circulars and their

• All invoicing and sub-award monitoring happens in the Office of External Resource Development for
   potential impact on current policies and procedures;

   compliance review purposes.

The Corrective Action Plan will continue into the foreseeable future, as the committee
continues to review OMB circulars and bring forward new or revised policies and procedures
and to disseminate information about these activities to the campus community. Basic to the
plan is the establishment of project oversight (monitoring and compliance review) in the Office
of External Resource Development, which operates out of the Office of the President.
Additional accounting records and budget controls will be




                   Response to Audit of DUE 9553716 (MASTER) / Page 3
 available to outside or internal auditors through the TSTC Waco Business Office,
 providing a system of checks and balances for direct and indirect costs.

 TSTC Waco is establishing a framework to provide federal grant funding agencies the assurance
that TSTC is managing federal awards in compliance with laws, regulations and provisions of
contracts or grant agreements that could have a material effect on each of its federal programs, per
OMB A-133.

Anticipated Completion Date: July 31, 2002,

The initial drafts of the new policies and procedures that will result from the Corrective Action Plan
should be in place by July 31, 2002. This date is relatively firmly in place as a goal, as TSTC Waco
is undergoing a self-study for the purposes of re-accreditation by the Southern Association of
Colleges and Schools (SACS). It is a further measure of TSTCs desire to put appropriate internal
controls in place that the SACS self-study committee is also monitoring the production of policies and
procedures committed to in the Corrective Action Plan.

Conclusion




                      Response to Audit of DUE 9553716 (MASTER) / Page 4
Enclosed is TSTC Waco's response to your request for additional comments dated June 26, 2002. As
the comments indicate, at the time the MASTER project was active (September 1995 - August
1999), TSTC Waco did not have an administrative Office of Sponsored Programs. Monitoring
for compliance with relevant OMB circulars and other guidelines was left to individual
project directors and administrators, and policy regarding the procedures related to
grant management at TSTC Waco was not fully developed.

Since that time, the External Resource Development Office has been created within the Office of
the President, providing pre-award -and post-award oversight, compliance monitoring and support
In addition, existing policy has been revised and new policy drafted to address compliance
with OMB circulars as well as the requirements of various federal funding agencies.

TSTC Waco is eager to work in any way with the National Science Foundation to complete the
audit process. NSF program directors Elizabeth Teles and Gerhard Salinger have been helpful in
these efforts, as have personnel from Leon Snead & Company. Please contact me if additional
information or documentation is necessary.
 Comments to Second Request for Information in Independent Auditors' Report
 Conducted for NSF Award DUE 9553716

 Introduction

 Dates of Award:        9/1/95 to 8/31/99
 Audit Period:          9/1/95 to 8/31/99




TSTC Response: This finding is accurate. At the time the MASTER grant was conducted,
the Office of External Resource Development did not exist, nor did any equivalent of an
office of sponsored programs at the college. That has been remedied, with the Office of
External Resource Development now correctly structured to provide the requisite oversight
and monitoring for such compliance details. Campus Operating Procedures have been
drafted to formalize such compliance monitoring in campus policy and procedures. These
policies are currently under final review. After they are formally approved by the TSTC
Systems office, a full review of existing grants will be conducted with time and effort
reports filed at the end of each- academic semester for each active grant; that work will take
place in the Office of External Resource Development, which is an arm of the Office of the
President at TSTC Waco.




Letter. "TSTC reimbursed August Technical College (ATC) for undocumented
expenses. OMB Circular A- 110, section.21 (b) 2 requires that recipients maintain
records that identify adequately the source and application of funds for federally-




        Response to Second Request for Comment on Audit of DUE 9553716 (MASTER) / Page 1
 sponsored activities. TSTC did not require supporting documentation for expenses
 claimed by ATC as being grant related Subsequent fieldwork by the auditor
 indicated that the expenses were reasonable and fully allowable. The failure to
 document grant related expenses could result in the revocation of the award and/or
 repayment of funds to NSF."

 TSTC Response: A s mentioned above, at the time the MASTER project was
 underway, T S TC Waco did not have the equivalent of an office of sponsored
 programs to provide monitoring for compliance with relevant OMB circulars. This
 office has since been corrected, with final approval on campus operating procedures to
 formalize such processes underway at this writing.' All new subawards will be
 monitored, with invoicing requirements designed to maintain compliance with
 OMB Circular A-110 as described above. Records of such compliance, along with copies
 of requisitions to pay invoices and requirements provided to each sub-contracted agency or
 organization, will be kept in the Office of External Resource Development at TSTC
 Waco.

 It should be noted that at the outset of each budget year, Memoranda of Understanding were
 constructed for each sub-contracted agency or organization, including ATC. These
 memoranda (sample copy attached) defined the sub-contracted organization's primary and
 supporting responsibilities, along with descriptions of total contract amount and allowable
 costs. These were appropriately established at the outset, but as the audit finding suggests, no
 documentation of compliance was required at the time of invoicing by the sub-contracted
 agency. The chief error-the absence of an office tasked to monitor for OMB circular and NSF
 requirement compliance-4s in the follow-up to these MOA's rather than in the intent of the
 grant project staff or TSTC administration. It is TSTC's belief that this has been remedied in
 the time since MASTER was active.

 Conclusions

 The "Corrective Action Planned" defined in the first audit response document still
stands. The Office of External Resource Development is at work implementing
internal controls and compliance policies and processes at the direction of senior campus
administration. Anticipated completion of new policies to establish these processes and
policies formally remains July 31, 2002. When these policies receive final systems
approval, a complete review of all existing grant projects for compliance with all OMB
circulars will be conducted, and the new policies will be formally implemented in all
new grant proposals. TSTC Waco remains committed to complete this audit
in a way that strengthens the college's capacity to seek and manage extramural
funding in the most efficient and accountable manner possible. To that end, we
are prepared to work as closely as needed with officials at Leon Snead, the NSF,
and any other federal agency from whom funds are sought.




    Response to Second Request for Comment on Audit of DUE 9553716 (MASTER) / Page 2
